           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION


  TRAINING AT OFFICES THAT MAKE
    DISABILITY DETERMINATIONS

     March 2012   A-01-11-21169




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:      March 14, 2012                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Training at Offices that Make Disability Determinations (A-01-11-21169)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           provided adequate training resources to offices that made disability determinations.

           BACKGROUND
           Training resources are critical to ensure SSA and disability determination services
           (DDS) 1 employees
           •   possess the knowledge, skills, and abilities required to make disability
               determinations;
           •   efficiently find the information needed to make disability determinations and maintain
               SSA’s high quality of service to the public;
           •   remain current with SSA’s technical, system, and policy updates related to making
               disability determinations; and
           •   support succession planning through professional enhancement and development.

           As of September 2011, offices that made disability determinations employed
           17,969 staff and made over 4 million disability determinations in Fiscal Year 2011.
           (See Appendix B for staffing details.)

           These offices consist of State DDSs and SSA Federal units. Federal units are located
           in each of SSA’s 10 regions plus 3 offices at SSA Headquarters—the Offices of
           Disability Operations, International Operations, and Medical and Vocational Expertise.

           1
            DDSs are State-run agencies that make disability determinations for SSA. DDS staff obtains relevant
           medical evidence, evaluates the case, and determines whether the claimant is disabled under SSA’s
           criteria. DDSs are in each of the 50 States plus the District of Columbia and Puerto Rico. The Social
           Security Act §§ 221(a)(2) and 1633(a), 42 U.S.C. §§ 421(a)(2) and 1383b(a). See also
           20 C.F.R. §§ 404.1603 and 416.1003.
Page 2 - The Commissioner

The State DDS ensures that all its employees have an acceptable level of competence.
SSA will generally not conduct or identify specific training for the DDSs because they
consist of State—not Federal—employees; 2 however, SSA will reimburse the DDSs for
all allowable expenditures, including training. 3 SSA will only step in if
•     a State DDS’ performance approaches unacceptable levels or
•     the training material required is complex or the State DDS’ capacity to deliver the
      training is in doubt and training uniformity is essential. 4

For this review, we contacted 65 offices—all 52 DDSs and 13 Federal units—that make
disability determinations. We also obtained feedback from SSA’s
•     Office of Disability Determinations (ODD) that supports and coordinates training;
•     Office of Disability Programs (ODP) that administers policy and provides policy
      compliant training materials;
•     Office of Learning (OL) that manages all disability training materials; and
•     Centers for Disability that provide program leadership and technical direction and
      are located in each of SSA’s 10 regions.

See Appendix C for our scope and methodology.

RESULTS OF REVIEW
SSA provided training resources to offices that made disability determinations; however,
we found that offices required additional support. While the offices were generally
satisfied with SSA’s training resources, they supplemented these resources by creating
their own. Moreover, several offices created materials for the same training topics.
Thus, SSA was funding these duplicative efforts. Additionally, offices indicated that
training materials should replicate the production environment.

Of the 65 offices we contacted, 64 (98 percent) responded. We provided SSA the
information obtained from these offices. Our intent was to ensure SSA received all
feedback to improve training resources, including items not discussed in this report. 5




2
    SSA does specify some training, such as security policies and procedures.
3
 The Social Security Act §§ 221(e) and 1633(a), 42 U.S.C. §§ 421(e) and 1383b(a). See also
20 C.F.R. §§ 404.1626 and 416.1026.
4
    20 C.F.R. §§ 404.1622 and 416.1022. See also SSA, POMS, DI 39521.100 (March 21, 2002).
5
    Before transmittal, we omitted any information that would identify a specific office or location.
Page 3 - The Commissioner

SSA’S TRAINING RESOURCES

SSA provides training resources and other instructional materials to facilitate basic and
advanced technical skills of disability staff. 6 Resources include training programs,
handbooks, Internet materials, Interactive Video Teletraining (IVT), and Video On
Demand (VOD).

      Training Programs and Handbooks

      Disability Examiner Basic Training Program (DEBTP) comprises manuals and videos
      to train newly appointed disability examiners. The program content includes SSA’s
      disability policy, medical and vocational topics, and case adjudication techniques.

      Medical/Psychological Consultant Handbook provides new medical and
      psychological staff members or contractors a comprehensive overview of SSA’s
      disability program and their roles in the adjudication process. The Handbook reflects
      current procedures and promotes consistency of policy application.

      Intranet Materials

      SSA National Learning Management System is an e-Learning site with over
      3,000 online learning courses. Staff can access the site from work or home to take
      courses, including leadership skills, ethics, and office policies.

      Online Disability Case Studies supplement training of new adjudicators. SSA
      designed the cases to encourage new adjudicators to think like experienced
      adjudicators and focus on effective case analysis and efficient development
      practices. This results in the adjudicator making the correct decision at the earliest
      point possible. As of December 2011, 50 training cases with over 120 different
      policy issues and indexed by training topic were available to offices.

      Disability Processing Resource Site was created in July 2011 for disability-related
      policy, training, and other resources to be readily accessible to staff processing
      disability claims. The site contains links to most policy-compliant materials.

      IVT and VOD

      IVT is an interactive, distance learning tool that enables SSA to deliver live training
      broadcasts to multiple offices. SSA publishes the IVT Program schedule online. In
      addition, SSA converts live IVTs to VODs that are available for use in future training.

      VOD is a comprehensive library of over 300 video training lessons including
      computer skills, disability topics, and general training. VOD content comes from the
      IVT broadcasts. The VOD’s are indexed and available on OL’s Website.


6
    20 C.F.R. §§ 404.1622 and 416.1022. SSA, POMS, DI 39521.100 (March 21, 2002).
Page 4 - The Commissioner

RESPONSES FROM OFFICES THAT MAKE DISABILITY DECISIONS

To obtain information about how offices used SSA’s training materials, we contacted
65 offices that made disability determinations. Of the 65 offices, 64 (98 percent)
responded, and most were generally satisfied with the Agency’s training resources7
(see Chart 1).

                            Chart 1: Respondent Satisfaction with SSA's Training Resources


     25                                   24
                              21
     20
     15
     10
               6                                                        7
      5
                                                        2                              2           1              1
      0
          Very Satisfied   Satisfied   Somewhat       Neither      Somewhat       Dissatisfied      Very      No Response
                                        Satisfied   Satisfied or   Dissatisfied                  Dissatisfied
                                                    Dissatisfied


                               Offices use SSA’s training resources to educate new and
    Using Training
                               existing staff. For example, when training a new disability
    Resources                  examiner, offices generally use SSA’s DEBTP as the
                               primary resource. Offices also use SSA IVTs, VODs, and
training cases. In addition, offices mentor new examiners and monitor their work.
According to SSA, newly hired examiners can make some, but not all, disability
determinations within a few months; however, it takes an average of 2 years of training
for a newly hired disability examiner to become proficient.

Offices also use SSA’s training materials to keep existing staff informed. For example,
when SSA updates policies, offices use memorandums or IVTs to distribute information.

                             While offices were generally satisfied with SSA’s training
     Supplementing
                             resources, they also supplemented those resources by
     Training Resources      creating their own. Of the 64 offices, 61 created
                             supplemental training materials. Moreover, several offices
created materials for the same training topics. For instance, of the 64 offices:

•     36 supplemented SSA’s DEBTP training. For example, one office created additional
      DEBTP handouts, manuals, and exercises as well as several presentations
      dedicated to each body system. Another office created presentations with links to
      medical sites, graphics, and interactive Websites for body system training.




7
    In this report, we generally discuss the concerns of offices dissatisfied with SSA’s training resources.
Page 5 - The Commissioner

•     18 supplemented SSA’s continuing disability review (CDR) training material. 8 For
      example, one office prepared an electronic CDR manual and handouts for staff to
      reference. Another office created a different CDR handbook for its staff.

•     15 created and maintained an internal training repository—such as an Intranet site
      or database—of SSA’s training materials. For example, one office maintained a
      Website with links to SSA’s electronic training resources. Another office maintained
      a site of SSA user guides and other reference materials.

•     7 supplemented SSA’s case studies. For example, 1 office created approximately
      40 sample claims. This office reported it took significant time and resources to keep
      these sample claims current. Another office also reported maintaining its own
      sample case bank.

Furthermore, some offices reported spending approximately more than 2 weeks
creating supplemental training materials. Because SSA funds each office’s necessary
costs, it is paying for these duplicative efforts.9

                                    While some offices pointed out SSA’s recent efforts to
     Suggestions to Improve
                                    improve training resources, some also suggested areas
     Training Resources             for SSA to continue to improve training resources. For
                                    instance:

•     19 offices indicated a need for more varied training materials to accommodate
      different learning styles. For example, one office mentioned that complex topics are
      sometimes difficult for trainees to understand. Therefore, it suggested that it would
      be beneficial to have training topics available in different formats to provide more
      flexibility in training for offices. Another office suggested this would aid smaller
      offices that may not have the staff available to create alternate training materials.

•     16 offices indicated a need for more complex case studies. For example, case
      studies that included claim denials, childhood impairments, reconsiderations, and
      CDRs. 10 One office suggested that SSA provide these cases to share among all
      offices.




8
 After SSA determines an individual to be disabled, it is required to conduct periodic CDRs to determine
whether the individual continues to be disabled. 20 C.F.R. §§ 404.1589 and 416.989.
9
 The Social Security Act §§ 221(e) and 1633(a), 42 U.S.C §§ 421(e) and 1383b(a). See also, 20 C.F.R.
§§ 404.1626 and 416.1026.
10
  In December 2011, SSA informed us it was creating additional case studies to include claim denials,
childhood impairments, reconsiderations, and CDRs.
Page 6 - The Commissioner

•     13 offices indicated the need for a national Website of training resources. In
      addition, some offices indicated the need for more communication and sharing of
      materials. For example, an office commented that because each office is
      responsible for its own training needs, it leads to duplication of efforts nationwide.
      Therefore, SSA should facilitate the sharing of locally created training materials.

SSA TOOLS SUPPORTING OFFICES’ TRAINING EFFORTS

SSA has developed several tools that aid offices with disability staff training. Examples
follow.

 Electronic Case Analysis Tool (eCAT)—documents the disability adjudicator’s
  analysis and ensures the adjudicator considered all relevant SSA policies during the
  process. In a prior review, we determined eCAT had a positive effect on disability
  examiner training. 11

 Policy Feedback System—gathers and analyzes disability processing data to
  identify areas for policy changes or improvements.

 Request for Program Consultation—supports the process of resolving program-
  related disagreements between offices that make disability determinations and the
  Office of Quality Performance (OQP). 12 The application creates a repository of
  information related to these requests and allows database searches for specific
  program consultations.13

 Vocational Policy Training Webpage—provides training resources such as; VODs,
  links to case studies, desk aids, and flowcharts. These resources are accessible by
  anyone within SSA’s system and organized alphabetically by topic, which enables
  users to find all materials on a particular topic at once.

                                      Some respondents indicated training materials should
     Suggestions to Improve           replicate the current production environment. For
     Training Tools                   instance, training materials should incorporate all the
                                      tools—such as eCAT.

For example, one office suggested SSA add eCAT functionality to the DEBTP. Another
office suggested that sample cases include eCAT and eView—which provides access to

11
  SSA OIG, Quick Response Evaluation: The Effects of the Electronic Claims Analysis Tool
(A-01-11-21193), July 2011.
12
  OQP conducts quality reviews, studies, and statistical analyses of SSA programs, business processes,
and services delivery; assesses the accuracy of programmatic payments and transactions; and
recommends corrective changes in programs, policies, procedures, or legislation.
13
    As of March 2012, we were assessing SSA’s Request for Program Consultation process in our review
titled Resolving Issues Identified During the Social Security Administration’s Quality Reviews of Disability
Determinations (A-01-11-11119).
Page 7 - The Commissioner

the electronic disability folder and capability to print folder information. According to one
office, this would provide training on all aspects of case processing that offices regularly
use.

SSA’s EFFORTS TO IMPROVE AND STREAMLINE TRAINING RESOURCES

SSA has sought to improve and streamline training resources. For instance, SSA has
cross-component workgroups to develop training for offices that make disability
determinations. These workgroups include the following.

 National Disability Training Cadre—established in December 2000, comprises
  select volunteer trainers. 14 During their 3-year term, Cadre members update
  disability training materials as well as host and write scripts for training videos.

 Training Advisory Committee (TAC)—established in October 2010, identifies
  training needs, gives input to SSA components that create training materials, and
  helps market the training tools.15 Since December 2010, TAC meets monthly to plan
  and prioritize training resources.

 Unified Disability Training (UDT)—established in February 2011, identifies
  disability training needs and recommends methods to address those needs across
  adjudicative levels. 16 SSA envisions the UDT will result in a more effective use of
  training resources, a greater understanding of the adjudication process by all
  disability staff, and more sound adjudication of disability claims. As of
  December 2011, the UDT had one online training lesson; however, the goal is to
  develop additional lessons.

In May 2011, the Agency began developing the Disability Information Gateway
Resource tool—a more extensive Web application that would consolidate all links to
disability resources and training materials into a searchable database. According to
SSA, this application will be in a central location that individuals at all levels of the
disability adjudicative process can go to for their resource and training needs.
Additionally, SSA created a national disability examiner training package for CDRs—
which it anticipates being a priority workload in Fiscal Year 2012.




14
   The National Disability Training Cadre includes volunteer trainers from the DDS, ODP, OQP, the Office
of Disability Adjudication and Review (ODAR), and regional and field offices.
15
  The TAC workgroup includes members from the DDSs, ODD, ODP, OL, and the regional offices. TAC
uses a two-prong approach to identify DDS training needs: one group identifies training materials for
DDS examiners and medical consultants and the other group identifies and recommends materials for
participants in Management and Leadership training.
16
  The UDT workgroup includes members from ODAR, ODD, ODP, OL, OQP, and the Office of Public
Service and Operations Support.
Page 8 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA provided training resources to offices that made disability determinations; however,
we found that offices required additional support. While the offices were generally
satisfied with SSA’s training resources, they supplemented these resources by creating
their own. Moreover, several offices created materials for the same training topics.
Thus, SSA was funding these duplicative efforts. Additionally, offices indicated that
training materials should replicate the production environment.

Therefore, as SSA streamlines and improves training resources for offices that make
disability determinations, we recommend the Agency:

1. Promote communication among offices that make disability determinations to
   minimize duplicative efforts.

2. Ensure training materials incorporate all the applications adjudicators use regularly
   (such as eCAT, eView, and case processing systems).

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix D.




                                         Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Federal Unit and Disability Determination Services Staffing

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
CDR      Continuing Disability Review
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
DEBTP    Disability Examiner Basic Training Program
eCAT     Electronic Case Analysis Tool
EST      Extended Service Team
FY       Fiscal Year
IVT      Interactive Video Teletraining
ODAR     Office of Disability Adjudication and Review
ODD      Office of Disability Determinations
ODP      Office of Disability Programs
OIG      Office of the Inspector General
OL       Office of Learning
OQP      Office of Quality Performance
POMS     Program Operations Manual System
SSA      Social Security Administration
TAC      Training Advisory Committee
UDT      Unified Disability Training
U.S.C.   United States Code
VOD      Video On Demand
                                                                                   Appendix B

Federal Unit and Disability Determination
Services Staffing
According to the Social Security Administration, as of September 2011, offices that
made disability determinations employed 17,969 staff, including 8,656 disability
examiners and 152 disability examiner trainees. See Table B-1 for details.

      Table B-1: Federal Unit and DDS Staffing by Location as of September 2011
                                                     Disability      Disability Examiner        Total
                       Office
                                                     Examiners            Trainees              Staff
    Alabama                                                    183                       68        477
    Alaska                                                      11                         -         28
    Arizona                                                    111                         -       269
    Arkansas                                                   163                         -       283
                                              1
    Arkansas Extended Service Team (EST)                        73                         -       117
    Atlanta Region                                              79                         -       116
    Boston Region                                                6                         -         18
    California                                                 666                         -     1,481
    Chicago Region                                              72                         -       102
    Colorado                                                    76                         -       153
    Connecticut                                                 67                         6       158
    Dallas Region                                               44                         -        69
    Delaware                                                    24                         -        51
    Denver Region                                                8                         -         16
    District of Columbia                                        26                         -         60
    Florida                                                    653                         -     1,207
    Georgia                                                    254                         -       567
    Hawaii                                                      20                         -         58
    Idaho                                                       29                         3         77
    Illinois                                                   195                       28        529
    Indiana                                                    161                         -       328
    Iowa                                                        75                         -       152
    Kansas                                                      48                         -       113
    Kansas City Region                                          73                         -       103

1
  ESTs are specialized units in the DDSs dedicated to assisting other State DDSs in processing disability
claims.

                                                   B-1
  Table B-1: Federal Unit and DDS Staffing by Location as of September 2011
                                              Disability   Disability Examiner   Total
                   Office
                                              Examiners         Trainees         Staff
Kentucky                                             229                     -     421
Louisiana                                            117                     -     291
Maine                                                 36                     -      76
Maryland                                             123                     -     263
Massachusetts                                        180                     -     354
Michigan                                             279                     -     618
Minnesota                                             95                     -     204
Mississippi                                          121                   16      278
Mississippi EST                                       24                     -      42
Missouri                                             205                     -     402
Montana                                               22                    3       56
Nebraska                                              39                     -      92
Nevada                                                55                     -     118
New Hampshire                                         26                     -      59
New Jersey                                           189                   18      355
New Mexico                                            45                     -      92
New York                                             492                     -     925
New York Region                                       65                     -      94
North Carolina                                       299                     -     638
North Dakota                                          11                     -      32
Ohio                                                 333                     -     636
Oklahoma                                             126                     -     253
Oklahoma EST                                          34                     -      54
Office of Disability Operations                       60                     -      60
Office of International Operations                    12                     -      12
Office of Medical and Vocational Expertise            30                     -      93
Oregon                                                90                     -     181
Pennsylvania                                         307                     -     735
Philadelphia Region                                   70                     -     100
Puerto Rico                                           83                     -     159
Rhode Island                                          28                     -      64
San Francisco Region                                  72                     -     105
Seattle Region                                         6                     -      20
South Carolina                                       175                     -     425


                                             B-2
  Table B-1: Federal Unit and DDS Staffing by Location as of September 2011
                                       Disability   Disability Examiner   Total
                Office
                                       Examiners         Trainees         Staff
South Dakota                                   18                     -      44
Tennessee                                     214                     -     529
Texas                                         522                    1     1,027
Utah                                           37                    4       94
Vermont                                        13                    5       51
Virginia                                      182                     -     409
Virginia EST                                   49                     -      87
Washington                                    168                     -     384
West Virginia                                 100                     -     236
Wisconsin                                     150                     -     244
Wyoming                                         8                     -      25
TOTAL                                       8,656                  152    17,969




                                     B-3
                                                                                   Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures as well as other
    applicable Federal regulations.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained and evaluated information on SSA’s training resources available to offices
    that make disability determinations by contacting officials and staff from the
    52 disability determinations services; 13 Federal units; and the Offices of Disability
    Determinations (ODD), Disability Programs, and Learning as well as the Centers for
    Disability in each regional office. 1

•   Provided SSA the information obtained from these offices. Our intent was to ensure
    SSA received all feedback to improve training resources, including items not
    discussed in this report. Before transmittal, we omitted any information that would
    identify a specific office or location.

We performed our review between July and December 2011 in Boston, Massachusetts.
The principal entity audited was ODD under the Office of the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




1
 The DDSs process initial and reconsideration claims for SSA and are in each of the 50 States plus the
District of Columbia and Puerto Rico. The Federal units assist the DDSs with processing disability claims.
Federal units are located in each of SSA’s 10 regions plus 3 offices at Agency headquarters—the Offices
of Disability Operations, International Operations, and Medical and Vocational Expertise.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      March 1, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis    /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Training at Offices that Make Disability
           Determinations”(A-01-11-21169)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas, at (410) 966-7284.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“TRAINING AT OFFICES THAT MAKE DISABILITY DETERMINATIONS”
(A-01-11-21169)


Recommendation 1

Promote communication among offices that make disability determinations to minimize
duplicative efforts.

Response

We agree.

Recommendation 2

Ensure training materials incorporate all the applications adjudicators use regularly (such as
eCAT, eView, and case processing systems).

Response

We agree.




                                                D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-11-21169.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
